                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION


                   Review of NRC’s Personnel Security
                Program Contractor Policies and Practices


                    OIG-04-A-02         November 5, 2003




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                            November 5, 2003




MEMORANDUM TO:               William D. Travers



FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     REVIEW OF NRC’S PERSONNEL SECURITY PROGRAM
                             CONTRACTOR POLICIES AND PRACTICES (OIG-04-A-02)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s Personnel
Security Program Contractor Policies and Practices.

Auditors found that (1) NRC employees do not consistently implement the established
contractor access policy and procedure requirements and (2) NRC does not act expeditiously to
resolve access decisions pertaining to IT contractors when issues are reflected in the
background investigation conducted by the Office of Personnel Management (OPM).
Furthermore, because NRC does not screen OPM investigation results upon receipt to
determine issue significance, cases that may warrant expedited resolution or immediate action
cannot be identified for such treatment.

The report makes 10 recommendations to strengthen controls over the personnel security
program with regard to contractor access to NRC headquarters and regional office facilities and
information.

During an exit conference on September 26, 2003, NRC officials provided comments
concerning the draft audit report. OIG incorporated these comments, as appropriate, into the
report. NRC officials reviewed the modifications and opted not to submit formal written
comments to this final version of the report.

If you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector General
for Audits, at 415-5915 or Beth Serepca at 415-5911.

Attachment: As stated

cc:     William Dean, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                         Review of NRC’s Personnel Security Program Contractor Policies and Practices


EXECUTIVE SUMMARY

    BACKGROUND

          Most Nuclear Regulatory Commission (NRC) contractor employees are required
          to obtain approval through the agency’s personnel security process prior to
          beginning work for the agency. Contractors receive one of three types of
          access: (1) classified access, which permits them to work with classified
          information; (2) information technology (IT) access, which permits them to work
          with NRC sensitive IT systems and information, and (3) building access, which
          allows them continuous unescorted access within headquarters or regional office
          facilities. Approval for access to these three levels is based on a background
          investigation conducted by the Office of Personnel Management (OPM) or the
          General Services Administration. Contractors are often granted temporary
          access before the background investigation is completed.

    PURPOSE

          The audit objectives were to determine (1) whether NRC policies for contractor
          employee access to agency information and facilities are being implemented and
          (2) whether the contractor temporary access process meets its goal of expediting
          contractor employment without jeopardizing NRC safety and security.

    RESULTS IN BRIEF

          Personnel security program weaknesses pertaining to contractor access to NRC
          headquarters and regional office facilities could be placing the agency’s
          information, facilities, and staff at risk. Specifically, program requirements are
          not consistently followed and the agency lacks a process for expeditiously
          resolving final access decisions for IT contractors with temporary access when
          issues are reflected in the OPM background investigation.

          Contractor Personnel Security Program Requirements Are Inconsistently
          Followed

          NRC employees do not consistently implement the established contractor access
          policy and procedure requirements. OIG reviewed documentation and
          interviewed NRC project officers associated with 17 contracts and determined
          that contrary to NRC guidance and policy:

          ‚      Contractors were working prior to review and adjudication for temporary
                 access by the Division of Facilities and Security (DFS).
          ‚      Contractors were escorting other contractors without approval to do so.
          ‚      Contractors with only building access had access to the NRC computer
                 network.
          ‚      Contractors working offsite with sensitive information had not been
                 approved for IT access.

                                             i
                    Review of NRC’s Personnel Security Program Contractor Policies and Practices



     ‚      Security infractions were not consistently administered for contractor
            related security violations.

     These lapses occur because NRC’s personnel security program managers have
     not effectively documented or communicated contractor security policies to NRC
     staff expected to carry out these policies. As a result, some contractors are
     inappropriately given access to NRC facilities and data, potentially jeopardizing
     agency employees and information. In addition, DFS officials have made policy
     and procedure changes without formally documenting or providing rationale for
     those changes.

     Agency Response to IT Temporary Access Issue Cases Is Not Timely

     NRC does not act expeditiously to resolve access decisions pertaining to IT
     contractors when issues are reflected in the OPM background investigation. As
     of June 2003, DFS had a total of 80 investigative reports returned from OPM that
     needed to be reviewed and adjudicated for contractors already working at NRC
     with temporary access. Of these 80 reports, 70 had issues (i.e., questionable or
     derogatory background information of varying levels of significance), and 39 of
     these issue cases had been awaiting adjudication for 5 months or more. This
     slow response occurs because DFS lacks a process for resolving these cases
     quickly. Furthermore, because NRC does not screen OPM investigation results
     upon receipt to determine issue significance, cases that may warrant expedited
     resolution or immediate action cannot be identified for such treatment.

RECOMMENDATIONS

     This report makes 10 recommendations to the Executive Director for Operations
     to strengthen controls over the personnel security program with regard to
     contractor access to NRC headquarters and regional office facilities. A
     consolidated list of recommendations appears on pages 21 – 22 of this report.

AGENCY COMMENTS

     During an exit conference on September 26, 2003, NRC staff provided
     comments concerning the draft audit report. We modified the report as we
     determined appropriate in response to these comments. NRC reviewed these
     modifications and opted not to submit formal written comments to this final
     version of the report.




                                       ii
                    Review of NRC’s Personnel Security Program Contractor Policies and Practices


ABBREVIATIONS AND ACRONYMS

    CFR     Code of Federal Regulations
    DFS     Division of Facilities and Security
    FY      Fiscal Year
    IT      information technology
    LAN     local area network
    MD      Management Directive
    NRC     Nuclear Regulatory Commission
    OCIO    Office of the Chief Information Officer
    OGC     Office of the General Counsel
    OIG     Office of the Inspector General
    OPM     Office of Personnel Management
    SCIF    sensitive compartmentalized information facility




                                       iii
Review of NRC’s Personnel Security Program Contractor Policies and Practices




   [Page intentionally left blank.]




                   iv
                                   Review of NRC’s Personnel Security Program Contractor Policies and Practices


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
    I.       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II.      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
    III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                       A. CONTRACTOR PERSONNEL SECURITY PROGRAM REQUIREMENTS ARE
                       INCONSISTENTLY FOLLOWED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                       B. AGENCY RESPONSE TO IT TEMPORARY ACCESS ISSUE CASES IS NOT
                       TIMELY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
    IV.      CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . 17
    V.       AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


    APPENDIXES
    A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    B.       CONTRACTOR ACCESS APPROVAL PROCESS . . . . . . . . . . . . . . . . . . . . . 23




                                                           v
Review of NRC’s Personnel Security Program Contractor Policies and Practices




   [Page intentionally left blank.]




                   vi
                                     Review of NRC’s Personnel Security Program Contractor Policies and Practices




I. BACKGROUND

                  Government agencies are requesting more security clearances for Federal
                  workers as part of the Nation’s overall response to the terrorist attacks of
                  September 11, 2001. In FY 2002, the Office of Personnel Management (OPM)
                  — which manages the bulk of these requests — received almost 2 million
                  requests for background investigations and other checks for contractors and
                  employees. That was an increase of nearly 90 percent from the prior fiscal year.
                  Background investigations serve as a basic protection against espionage or
                  other misuse of classified and sensitive agency information, occupational fraud
                  and abuse, and crime in the workplace. Due to a Governmentwide initiative to
                  increase reliance on Federal contractor employees, the need for background
                  investigations for these individuals will continue to grow.

                  One purpose of a personnel security background investigation is to determine
                  whether past behavior is a matter of concern for future reliability. Background
                  investigations vary in depth based on the type of work the employee or
                  contractor will be doing. For example, Federal employees needing Confidential,
                  Secret, and L clearances undergo an Access National Agency Check with
                  Inquiries, while a Single-Scope Background Investigation is required for Top
                  Secret and Q clearances.1 Government employees who will not be working with
                  classified information are required to undergo at least an investigation to assess
                  their “suitability”2 for Federal employment.

                  While the Office of the Inspector General (OIG) did not identify any regulations
                  concerning suitability for contractors who will not be working with classified
                  information, an OPM official explained that agencies are expected to hold these
                  contractors to the same standard as Federal employees. Thus, agencies need
                  to conduct background investigations appropriate to the level of risk posed by
                  the contractor’s access to agency facilities or information.




         1
         To work with Confidential, Secret, or Top Secret classified information, individuals must receive at least the
corresponding level of security clearance (i.e., Confidential, Secret, Top Secret). Pursuant to the Atomic Energy Act,
NRC uses a separate system; employees either receive an L clearance, which equates to a Confidential or Secret
clearance, or a Q clearance, which equates to a Top Secret clearance.
         2
          According to Title 5, Part 731, Code of Federal Regulations (5 CFR Part 731), “Suitability,” the
determination of suitability for Federal employment is based on an individual’s character or conduct that may have
an impact on the integrity or efficiency of the service. These determinations of suitability for Federal employment are
characterized in 5 CFR Part 731 as different than determinations of eligibility for assignment to sensitive national
security positions.

                                                          1
                                       Review of NRC’s Personnel Security Program Contractor Policies and Practices



                    NRC Contractor Security Requirements

                    In accordance with legislative requirements and agency policy, most contractor
                    employees3 working for the agency are required to undergo NRC’s personnel
                    security process prior to beginning work for NRC. Under these requirements, (1)
                    contractors working with classified information or in positions of high public trust
                    (e.g., security guard) must be approved for Q or L access authorization,4 (2)
                    contractors with access to NRC sensitive information technology (IT) systems
                    and information must be approved for information systems access5 (referred to
                    in this report as IT access), and (3) contractors who require continuous
                    unescorted access within headquarters or regional office facilities (but do not
                    need IT access) must be approved for building access. Currently, there are
                    approximately 960 contractors working for headquarters and regional office
                    facilities. Approximately 90 have either Q or L access authorizations, while the
                    remainder have either IT or building access.6

                    The Contractor Access Process

                    The process for granting IT and building access to contractors involves two
                    phases: (1) a temporary access phase, which allows a contractor to begin work
                    prior to a final access determination and (2) a final access phase, which is based
                    on a more indepth background investigation. (See Appendix B for a flow chart
                    depicting this process.) Each phase involves an evaluation — referred to as
                    adjudication — of background information about the contractor employee.
                    Division of Facilities and Security (DFS) staff adjudicate cases based on a set of
                    guidelines used to assess individuals who work with classified information. DFS
                    staff explained that when a contractor’s background raises questions based on




         3
          Contractors who will be working for 30 days or less at the headquarters or regional office facilities (e.g.,
pest control, specialty electrician) and do not need access to sensitive IT systems or data are not required to
undergo a personnel security review. However, these contractors must be issued visitor badges on a daily basis and
must be escorted by an NRC employee the entire time they are working in NRC facilities. In addition, contractors
working offsite with non-sensitive NRC data are not currently required to undergo a personnel security review.
         4
           The term access authorization is defined in Title 10, Part 10, Code of Federal Regulations (10 CFR Part
10), “Criteria and Procedures for Determining Eligibility for Access to Restricted Data or National Security
Information or an Employment Clearance,” as an administrative determination that a prospective or current NRC
employee or contractor is eligible for a security clearance for access to Restricted Data or National Security
Information. For practical purposes, this term is interchangeable with “security clearance.”
         5
            The term access is not defined or even used in 10 CFR Part 10, but appears in NRC Management
Directive and Handbook 12.3 (MD 12.3), “NRC Personnel Security Program,” in connection with IT Level I, IT Level
II, and building access contractors. Agency legal staff advised that the term access is not defined in 10 CFR Part 10
or MD 12.3, but is meant to convey the standard Webster’s dictionary definition of the word (i.e., permission, liberty,
or ability to enter, approach, communicate with, or pass to and from).
         6
             DFS could not easily provide a breakdown of contractors with IT access versus building access.

                                                           2
                 Review of NRC’s Personnel Security Program Contractor Policies and Practices



the guidelines, such questions are referred to as issues. The staff will attempt to
resolve — or mitigate — these issues by considering, for example, when the
problems occurred, their seriousness, and if they have been or are being
resolved.

During the temporary access phase, DFS staff review written personnel security
background information provided by the prospective contractor and credit and
criminal histories for these individuals. Based on the staff’s adjudication of this
information, a DFS branch chief grants (or denies) temporary access allowing
the contractor to begin work, unescorted, in the headquarters or regional office.


The second phase of
NRC’s security process     NRC Guidelines for Determining Eligibility for
occurs following the       Access
approval for temporary     Guidelines used by DFS staff to assess contractors for
access. In this phase,     temporary and final access approval appear in Title
DFS requests from          10, Part 10, Code of Federal Regulations (10 CFR
either OPM (for IT         Part 10), “Criteria and Procedures for Determining
                           Eligibility for Access to Restricted Data or National
access) or the General     Security Information or an Employment Clearance.”
Services Administration    These guidelines assess the individual’s loyalty to the
(for building access) a    United States and whether he or she could be
more comprehensive         susceptible to pressure to act against the interests of
                           national security. Items to be assessed include
background                 whether the individual:
investigation. When
these background           ‚          Has a history of financial problems.
investigation results      ‚          Provided false information on the personnel
                                      security questionnaire.
are returned (several      ‚          Uses alcohol excessively.
months to more than a      ‚          Uses illegal narcotics.
year after the request     ‚          Has a background suggesting criminal
is made), DFS staff                   tendencies, poor judgment, unreliableness, or
                                      untrustworthiness.
review and adjudicate      ‚          Knowingly established or continued a
the information. Based                sympathetic association with a representative
on this second review,                for a foreign nation whose interests may be
the DFS Security                      contrary to the interests of the U.S.
Branch Chief makes a
determination to either
grant or deny final
access to these contractors.

Recent DFS Efforts To Improve Controls

DFS staff and managers described various efforts made over the past several
years to improve controls over contractor access to NRC facilities and
information. These efforts included issuing several memoranda from the Office
of Administration to office directors urging compliance with agency access

                                     3
                        Review of NRC’s Personnel Security Program Contractor Policies and Practices



         requirements, presenting a security segment in NRC’s project officer training,
         issuing security infractions to project officers who violate the MD requirements,
         and meeting with project officers and their managers to discuss concerns
         relating to contractor access. According to the DFS Director, these efforts have
         caused a significant reduction in the number of contractors working in the
         headquarters buildings on an escorted basis without prior security review.
         Furthermore, he noted, there has been no recent evidence of theft or
         compromise of information related to contractors.


II. PURPOSE

         The audit objectives were to determine (1) whether NRC policies for contractor
         employee access to information and facilities are being implemented and (2)
         whether the contractor temporary access process meets its goal of expediting
         contractor employment without jeopardizing NRC safety and security. These
         objectives were derived as part of OIG’s overall review of the efficiency and
         effectiveness of NRC’s personnel security program, which is still in process.




                                           4
                                   Review of NRC’s Personnel Security Program Contractor Policies and Practices




III. FINDINGS

                 Personnel security program weaknesses pertaining to contractor access to NRC
                 headquarters and regional office facilities could be placing the agency’s
                 information, facilities, and staff at risk. Specifically, program requirements are
                 not consistently followed and the agency lacks a process for expeditiously
                 resolving final access decisions for IT contractors with temporary access when
                 issues are reflected in the OPM background investigation.


        A. CONTRACTOR PERSONNEL SECURITY PROGRAM REQUIREMENTS ARE
        INCONSISTENTLY FOLLOWED

                 NRC employees do not consistently implement the established contractor access
                 policy and procedure requirements. OIG reviewed documentation and
                 interviewed NRC project officers associated with 17 contracts and determined
                 that contrary to NRC guidance and policy:

                 ‚       Contractors were working prior to review and adjudication for temporary
                         access by DFS.
                 ‚       Contractors were escorting other contractors without approval to do so.
                 ‚       Contractors with only building access had LAN7 accounts.
                 ‚       Contractors who had not been approved for access were working offsite
                         with sensitive information.
                 ‚       Security infractions were not consistently administered for contractor
                         related security violations.

                 These lapses occur because NRC’s personnel security program managers have
                 not effectively documented or communicated policies concerning contractors to
                 NRC staff expected to carry out these policies. As a result, some contractors are
                 inappropriately given access to NRC facilities and data, potentially jeopardizing
                 agency employees and information. In addition, DFS officials have made policy
                 and procedure changes without formally documenting or providing rationale for
                 those changes.

                 NRC Policy and Procedures

                 NRC has established policy and other requirements to protect information, staff,
                 and facilities in accordance with laws, Executive orders, and management
                 directives. Management Directive and Handbook (MD) 12.3, “NRC Personnel
                 Security Program,” contains the policies and procedures establishing a
                 personnel security program to ensure that determinations of an individual’s


        7
          The Local Area Network (LAN) is a group of computers connected together to share information and
hardware in a small area.

                                                       5
                Review of NRC’s Personnel Security Program Contractor Policies and Practices



eligibility for access to information and facilities are in accordance with pertinent
laws and other guidance. While some requirements are formalized as policy in
NRC management directives, others are not. DFS officials convey NRC
personnel security program requirements not formalized in the MDs through
various means, such as Yellow Announcements, the NRC Web site, and through
discussion. These policies and requirements address a number of topics,
including when contractors may begin working for the agency, contractor
escorting requirements, temporary access process steps, DFS’s review of
contract security clauses, and the use of NRC’s security infraction program to
address noncompliance with requirements.

Contractor Security Policies Not Well Documented or Communicated

NRC employees do not consistently follow the established contractor access
policy and procedure requirements because these requirements are not well
communicated to staff in written policy or via other means. As a result, some
contractors are inappropriately given access to NRC facilities and data, placing
agency employees and information at risk. In addition, DFS officials have made
policy and procedure changes without formally documenting or providing
rationale for those changes.

OIG reviewed documentation and interviewed NRC project officers associated
with 17 contracts and identified 5 types of inconsistencies between policy and
practice on 7 of the contracts. No single contract reviewed demonstrated all five
inconsistencies, but some served to illustrate as many as three. The following
are examples of inconsistencies identified.

        Contractors Working Prior to DFS Approval

NRC allows contractors to begin working for NRC once they are approved by
DFS. However, 14 contractors working on 4 of the contracts reviewed by OIG
had worked prior to or without DFS review and adjudication for temporary
access. One example involved a health center contract employee who was
inappropriately signed in as a visitor for approximately 6 weeks. In this case, the
NRC project officer had submitted the paperwork to DFS, but such approval had
not yet been granted. The project officer explained that he allowed the
contractor to come on board prior to DFS approval because he did not want to
lose the opportunity to employ this individual, whom he felt was highly qualified
for the position.

Another example involved contractors working at headquarters to construct a
sensitive compartmentalized information facility (SCIF) for storing and discussing
classified information. Nine of 10 construction contractors or subcontractors
were signed in as visitors to work on the SCIF project. One of these individuals,
who worked for 9 days at NRC without having received approval, was then
denied access approval because of financial-related criminal conduct in his

                                   6
                                     Review of NRC’s Personnel Security Program Contractor Policies and Practices



                  background. Moreover, approximately 2 months after another proposed
                  contractor employee was denied access approval due to a violent criminal
                  background, the NRC project officer — who had been informed in writing that
                  this individual was not to have access to NRC facilities or information —
                  resubmitted the employee’s name for weekend access.8 In this circumstance, a
                  DFS official recognized the individual’s name and, consequently, the request
                  was denied.

                  The DFS Director told OIG that he gave his approval for the SCIF project
                  contractor employees to be signed in as visitors to work prior to their adjudication
                  for temporary access because he believed it necessary to expedite work on the
                  project. He said he conveyed his approval for the visitor sign-ins verbally to the
                  NRC project officer for the contract, but did not formally document the decision.

                           Contractors Escorting Other Contractors Without Approval

                  NRC requires agency employees to escort short-term contractor employees who
                  are not required to obtain access approval. However, on three contracts,
                  contractors who did not have permission escorted at least four such contractors.
                  The NRC project officers for two of the contracts said they work in offices
                  situated apart from the areas in which the contractors worked and were unaware
                  that these violations were occurring. On the third contract, the project officer,
                  who also worked in an area removed from the contractor work area, explained
                  that the foreman of the crew had building access approval and could be trusted
                  to supervise the other contractors. This project officer explained that it would be
                  inconvenient for NRC staff to have to perform all of the escorting.

                  Although DFS staff occasionally approve contractors to escort other contractors,
                  this option is not documented in MD 12.3. There are no criteria for who may
                  grant the approval, what qualifications the contractor should possess in order to
                  escort, or under what circumstances this permission is granted. Until recently,
                  DFS did not have a single, up-to-date list of contractors who had been granted
                  escort permission.

                           Building Access Contractors With LAN Accounts

                  NRC requires IT access for contractors to have NRC LAN accounts. Yet, OIG
                  identified 10 contractors with only building access (working on three contracts)
                  who had LAN accounts. Project officers for these contracts were not aware that
                  this practice was prohibited.




         8
           While the project officer was advised that the contractor was not permitted to work on the SCIF project, the
project officer was not informed of the specific reason for the denial of access.

                                                          7
                                     Review of NRC’s Personnel Security Program Contractor Policies and Practices



                  MD 12.3 states that IT access is needed for access to NRC sensitive IT systems
                  and data, but does not specifically mention assignment of LAN accounts. DFS
                  staff explained that contractors should not have a LAN account unless they have
                  been approved for IT access. While some project officers were aware of this
                  requirement, others were not. According to DFS managers, they have made
                  concerted efforts to communicate the requirements for contractor LAN access to
                  agency staff and to Office of the Chief Information Officer (OCIO) staff in
                  particular. They said the situation has improved due to these efforts and
                  explained that a revised version of Management Directive 12.5, “NRC Automated
                  Information Systems Security Program,” incorporates procedures clarifying that
                  OCIO will not grant contractors LAN access until receiving verification from DFS
                  that the appropriate security clearance or IT access had been granted.

                           Contractors Working Offsite With Sensitive Information

                  According to DFS staff, contractors working offsite with sensitive information are
                  required to be approved for IT access. However, three employees working
                  offsite on two contracts did not have IT access approval. In one case, an offsite
                  contractor employee who was working with sensitive information did not have IT
                  access approval. In another case, an offsite contractor employee who was
                  supervising onsite contractor employees did not have IT access approval. Yet,
                  the work performed by the onsite staff required them to have IT access. While
                  the NRC project officer said the offsite supervisor was not working with systems
                  information, but was overseeing the contract, the scenario causes OIG to
                  question the offsite supervisor’s access to sensitive NRC information.

                  The requirement for contractors working offsite with sensitive information is not
                  clearly stated in MD 12.3. MD 12.3 discusses “access to NRC sensitive
                  information technology systems and data by NRC contractors,” but does not
                  clearly state that sensitive data covers more than IT information. As one DFS
                  official explained, such access approval is required in cases where a breach of
                  the information protection requirements could have safety and security
                  implications.

                           Security Infractions Not Consistently Administered

                  Security infractions are used to address some types of noncompliance with
                  personnel security requirements,9 however, security infractions are not issued
                  consistently for policy and procedure violations. For example, the project officer
                  for the SCIF construction effort was not given an infraction after permitting
                  contractors to begin work prior to review and adjudication for temporary access.


         9
           A security infraction is an administrative action that DFS takes when an employee fails to comply with
NRC security requirements. DFS staff advised that if an employee receives three security infractions within a year,
they can lose their security clearance and, consequently, their job at NRC.


                                                         8
                Review of NRC’s Personnel Security Program Contractor Policies and Practices



Instead, the project officer was given permission by the DFS Director to allow the
employees to work prior to approval for project expediency purposes. However,
the project officer for a different contract was given a security infraction for the
same practice. The DFS Director told OIG he does not view the SCIF scenario
as warranting an infraction because he approved the contractors to begin work
prior to DFS review and adjudication and he has the authority to make these
types of decisions. The option for project officers to request exemptions to DFS
procedures is not documented in MD 12.3.

Moreover, neither NRC’s contractor security requirements nor the fact that one
can receive a security infraction for violating these requirements are clearly
communicated to staff. As evidenced in the above examples, key guidance in
MD 12.3 is unclear or incomplete. While a DFS staff member has been
providing security training for approximately 1½ years to participants in the
agency’s project officer training courses, the training was not provided during all
of the sessions conducted during this time period.

       Policy and Procedure Changes Not Always Documented

DFS management officials have made policy and procedure changes without
formally documenting or providing rationale for those changes. In one example,
a DFS manager instructed adjudicators to stop conducting security assurance
interviews that are required by MD 12.3 as a precursor to granting temporary
access. The DFS manager advised that routinely holding security assurance
interviews with prospective contractor employees was not likely to add value to
the temporary access process. This manager said that if a prospective
contractor answered questions dishonestly on their security forms, it was unlikely
that they would tell the truth during an interview. The manager said that a face-
to-face interview would be useful only if DFS staff had documentation proving
that the contractors’ written answers were inaccurate and that such information
was not available during the temporary access phase.

In contrast, a personnel security official from another Federal agency
acknowledged the benefits of conducting security interviews in situations where
the contractor would be working with sensitive information. This official said the
body language and other cues that are seen in a face-to-face interview are
highly informative and could help to reveal inaccuracies on a security
questionnaire. The official said a decision to conduct this type of interview ought
to be based on the potential harm that could be caused by a contractor based on
the type of work they would perform and their exposure to sensitive information.
In addition, information developed during this initial interview could be extremely
useful to reference if issues develop during the background investigation.




                                   9
                Review of NRC’s Personnel Security Program Contractor Policies and Practices



In a second example, a DFS manager instructed the DFS staff to stop evaluating
the financial information of contractors when determining their eligibility for
building access. Reviewing the credit report information for prospective building
access contractors was intended to strengthen the background review performed
on these contractors. In this case, the DFS manager explained that the
requirement was preventing too many contractors from being approved. This
manager said that many of these individuals had credit problems of varying
degrees, and could not be approved to begin work. The manager told OIG that,
in fact, it was never intended that the adjudicators use the financial information in
the credit report for adjudicating contractors for building access. Rather, they
were expected to use the report only to determine whether fraud alerts are
reflected on the report or if there are discrepancies in the social security number,
address, or name of the applicant that might suggest fraud. Therefore, the
manager instructed staff to stop reviewing the financial information, and to
review the credit report only for indicators of fraud. Again, this change was not
documented.

By making informal policy
changes without                    Fraud Examiners Advocate Strong Internal
documenting those                  Controls, Background Investigations
changes, NRC increases             In its 2002 Report to the Nation on Occupational Fraud
the risk of missing valuable       and Abuse, the Association of Certified Fraud
information during its             Examiners presents results of a survey it conducted of
access approval process.           approximately 10,000 certified fraud examiners in the
                                   United States. As part of the survey, respondents
                                   were asked, based on their own expertise, which of
                                   eight measures were most helpful in preventing fraud
                                   against organizations. Respondents reported that the
                                   top two most effective anti-fraud measures were, first,
                                   a strong system of internal controls, and second,
                                   detailed background checks on new employees.



Recommendations

OIG recommends that the Executive Director for Operations:

1.     Update and clarify MD 12.3 to reflect agency requirements concerning
       contractors working prior to approval, contractor escort requirements,
       level of access required to have a LAN account, and contractors working
       offsite with sensitive information.

2.     Specify in MD 12.3 examples of violations that could warrant a security
       infraction and administer the security infraction program consistently in
       accordance with these rules.

3.     Consistently provide materials on personnel security requirements in the
       project officer training course.

                                  10
                     Review of NRC’s Personnel Security Program Contractor Policies and Practices



     4.     Develop and implement a plan to communicate on a routine basis directly
            with all NRC project officers concerning contractor security requirements.
            The plan should include such elements as mandatory annual refresher
            training on security requirements for all project officers and e-mail
            reminders to all project officers concerning the requirements.

     5.     Develop and implement a formal process for granting and documenting
            exceptions to security requirements and identify who is authorized to
            grant such exceptions.

     6.     Broaden the use of the credit report information for building access
            contractors so that information pertaining to financial issues is considered
            during the adjudication process.


B. AGENCY RESPONSE TO IT TEMPORARY ACCESS ISSUE CASES IS NOT
   TIMELY

     NRC lacks a process for expeditiously resolving final access decisions for IT
     contractors with temporary access when issues are reflected in the OPM
     background investigation. This slow response occurs because DFS lacks a
     process for resolving these cases quickly. NRC emphasizes granting temporary
     IT access as quickly as possible, while delaying action on final access review,
     thus permitting contractors with questionable backgrounds to continue working
     until a final adjudication is made. Furthermore, because NRC does not screen
     OPM investigation results upon receipt for the significance of the issues that
     OPM identified, cases that may warrant expedited resolution or immediate action
     cannot be identified for such treatment. As a result, contractor employees with
     questionable backgrounds could be permitted to work at NRC, potentially
     jeopardizing the safety and security of agency employees and information.

     Temporary Access Requirements

     The purpose of NRC’s temporary access program for contractors is not stated in
     policy, but the program is presumably intended to bring contractors on board
     quickly without jeopardizing NRC workplace safety or security.

     MD 12.3 states that NRC must follow due process procedures if it seeks to deny
     final access to a contractor who has been allowed temporary IT access. (There
     is no due process requirement for denying access to building access
     contractors.) MD 12.3 also states, “On the basis of DFS’s review of the
     contractor employee’s security forms and/or the receipt of adverse information,
     the contractor employee may be denied access to NRC sensitive information
     technology systems and data until a final determination of eligibility for access is
     made under the provisions of due process.” MD 12.3 does not state which DFS


                                       11
                                     Review of NRC’s Personnel Security Program Contractor Policies and Practices



                  official is responsible for making this decision to deny access pending due
                  process procedures.

                  Due process requirements for IT contractors are not described in the Code of
                  Federal Regulations. While 10 CFR Part 10 requires due process procedures in
                  connection with suspension or revocation of “access authorization” (i.e., security
                  clearances), the regulations do not address either the subject of “access” or
                  “temporary access.” Therefore, the due process requirements for revoking
                  temporary access stem from MD 12.3 and are not directed by a higher regulatory
                  or legislative source.

                  Issue Case Resolution is Untimely
                  Review of DFS’s backlog of OPM investigation results found that NRC’s
                  personnel security program fails to deal with IT contractor “issue” cases in a
                  timely manner.

                  As of June 2003, DFS had a total of 224 OPM reports that needed review and
                  adjudication for employees and contractors. Of the 224, 80 were for contractors
                  already working at NRC with temporary access. Of these 80 OPM reports, 70
                  had issues, and 39 of these issue cases had been awaiting adjudication for 5
                  months or more.10 (See table for more details.)

              IT Contractor Issue Cases Awaiting Final Access Determination by
                                           NRC
          Time since case returned                          Number of cases
          from OPM
          0 to 1 months                                     6
          1 to 2 months                                     11
          2 to 3 months                                     7
          3 to 4 months                                     7
          5 months to 1 year                                28
          1 year to 2 years                                 10
          Over 2 years                                      1
          Total                                             70


         10
            5 CFR Part 732, “National Security Positions,” which pertains to Federal employees in national security
positions, requires agencies to adjudicate background investigation results and report to OPM on those results within
90 days of receiving the background investigation report. This provides a guide as to acceptable/reasonable time
frames for review.

                                                         12
                Review of NRC’s Personnel Security Program Contractor Policies and Practices



DFS staff explained that their priority is to get prospective NRC staff and
contractors approved for temporary access or access authorization as quickly as
possible so these individuals can begin working, rather than deal with issue
cases promptly. A DFS manager explained that while it would be desirable to
deal with issue cases sooner, this is not possible given the staff’s workload, the
considerable amount of overtime the staff already work on a regular basis, and
the demand by program offices to bring employees and contractors on board
quickly. DFS staff members commented that the number of special requests
they receive to expedite certain cases and other special projects that periodically
arise make it impossible to deal with cases in a first-come, first-served manner.
They also explained that most OPM investigation results contain issues
concerning those investigated, but that in hindsight they find that the majority of
issues are minor and, ultimately, mitigated so that final access can be granted.

DFS staff also perceive that there is no quick way to revoke a contractor’s
access when derogatory information arises. They said this is because of the
agency’s requirement that revocation of access cannot be made without
undergoing required due process procedures. One staff member explained that
there is no difference in the due process requirements afforded to IT contractors
during either the temporary or final access phase. According to the staff
member, preparing the evidence to support these cases is extremely time-
consuming and labor-intensive. Another staff member explained that this
evidence needs to be discussed with the Office of the General Counsel (OGC),
which determines whether NRC can go forward with the case based on the
evidence. If OGC does not believe the case is supported, DFS will not go
forward with the case, the staff member explained. (As stated previously, due
process procedures for IT contractors are not required by NRC regulations, but
are established at the management directive level.)

Process Is Inadequate

This slow response to adjudicate contractor issue cases occurs because DFS
lacks a process for addressing and resolving these cases promptly.

Office of Administration goals for personnel security emphasize quantity of case
resolution (i.e., FY 03 performance measure to complete adjudication of 702
security investigations/ reinvestigations) over the more time consuming aspects
of the personnel security process such as reviewing and resolving cases with
issues. Staff work priorities follow suit. For example, DFS staff strive to meet an
unwritten timeliness goal for reviewing and adjudicating requests for temporary
access (1 to 2 weeks to complete their review once paperwork submitted is
complete) for IT and building access contractors. However, they do not have a
timeliness goal for reviewing and adjudicating the information that is returned
from OPM in order to make a decision concerning final access.




                                  13
                                   Review of NRC’s Personnel Security Program Contractor Policies and Practices



                 Furthermore, there is no requirement that issue cases receive an initial
                 screening to determine the level of risk to the agency that could result from
                 allowing the contractor to have continued access. DFS staff members said they
                 try to review the OPM results within a few days of receipt to see whether OPM
                 has flagged the case as significant. They also said that sometimes they
                 purposely look for OPM’s response if it pertains to a troublesome case.
                 However, as part of any initial review, they do not routinely compare the OPM
                 results to the information used to grant temporary access to determine, for
                 example, whether there are significant discrepancies. That type of in-depth
                 review is not made until the DFS staff member decides to focus on a particular
                 issue case in their backlog in order to close the case.

                 While DFS staff members said they inform their manager about their workload
                 every 2 weeks, DFS management does not routinely track issue cases from
                 receipt to resolution.11 Staff members do not routinely report to the manager
                 about all pending issue cases, but only those on which they are currently working
                 or have resolved.

                 The due process requirements for IT contractors — which are perceived by DFS
                 staff as time consuming and burdensome — are not required by NRC
                 regulations. Therefore, NRC’s policy could be modified to one that resolves
                 issue cases with fewer resources. For example, at the U.S. Department of
                 State, if employment offers are made prior to completion of the full investigation,
                 the offers are conditional and contingent on a positive investigation outcome.

                 Security Risk Unaddressed

                 By failing to screen or review issue cases in a timely manner, NRC potentially
                 allows individuals who may be a security risk to the agency to maintain access to
                 agency facilities and information. Permitting the cases to remain unaddressed
                 for months serves, in a sense, as a defacto adjudication without review. NRC
                 can better protect its information, facilities, and employees by developing a
                 process to treat issue cases (particularly those which are significant) as priorities
                 and by adjusting policies that serve as obstacles to timeliness.

                 Recommendations

                 OIG recommends that the Executive Director for Operations:

                 7.       Develop performance measures that assess the timeliness of DFS’s
                          adjudication of all cases back from OPM and issue cases in particular.




        11
           Staff inform the manager about the number of cases they are currently working on and the number of
cases closed.

                                                       14
              Review of NRC’s Personnel Security Program Contractor Policies and Practices



8.    Screen contractor cases returned from the Office of Personnel
      Management upon receipt for significance of issues raised and adjudicate
      those with significant issues on a priority basis.

9.    Deny access to contractors with significant issues unless and until the
      case is resolved in the contractor’s favor.

10.   Incorporate clauses into NRC contracts specifying that temporary IT
      access approval for contract employees may be revoked immediately if
      issues surface during the background investigation that call into question
      the contractor’s suitability for employment at the agency.




                                15
Review of NRC’s Personnel Security Program Contractor Policies and Practices




   [Page intentionally left blank.]




                  16
                       Review of NRC’s Personnel Security Program Contractor Policies and Practices



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Update and clarify MD 12.3 to reflect agency requirements concerning
               contractors working prior to approval, contractor escort requirements,
               level of access required to have a LAN account, and contractors working
               offsite with sensitive information.

        2.     Specify in MD 12.3 examples of violations that could warrant a security
               infraction and administer the security infraction program consistently in
               accordance with these rules.

        3.     Consistently provide materials on personnel security requirements in the
               project officer training course.

        4.     Develop and implement a plan to communicate on a routine basis directly
               with all NRC project officers concerning contractor security requirements.
               The plan should include such elements as mandatory annual refresher
               training on security requirements for all project officers and e-mail
               reminders to all project officers concerning the requirements.

        5.     Develop and implement a formal process for granting and documenting
               exceptions to security requirements and identify who is authorized to
               grant such exceptions.

        6.     Broaden the use of the credit report information for building access
               contractors so that information pertaining to financial issues is considered
               during the adjudication process.

        7.     Develop performance measures that assess the timeliness of DFS’s
               adjudication of all cases back from OPM and issue cases in particular.

        8.     Screen contractor cases returned from the Office of Personnel
               Management upon receipt for significance of issues raised and adjudicate
               those with significant issues on a priority basis.

        9.     Deny access to contractors with significant issues unless and until the
               case is resolved in the contractor’s favor.

        10.    Incorporate clauses into NRC contracts specifying that temporary IT
               access approval for contract employees may be revoked immediately if
               issues surface during the background investigation that call into question
               the contractor’s suitability for employment at the agency.




                                         17
Review of NRC’s Personnel Security Program Contractor Policies and Practices




   [Page intentionally left blank.]




                  18
                      Review of NRC’s Personnel Security Program Contractor Policies and Practices



V. AGENCY COMMENTS

        During an exit conference on September 26, 2003, NRC staff provided
        comments concerning the draft audit report. We modified the report as we
        determined appropriate in response to these comments. NRC reviewed these
        modifications and opted not to submit formal written comments to this final
        version of the report.




                                        19
Review of NRC’s Personnel Security Program Contractor Policies and Practices




   [Page intentionally left blank.]




                  20
                        Review of NRC’s Personnel Security Program Contractor Policies and Practices

                                                                                         Appendix A
SCOPE AND METHODOLOGY

        This audit reviewed U.S. Nuclear Regulatory Commission (NRC) contractor
        access policies and practices to determine (1) whether NRC policies for
        contractor employee access to information and facilities are being implemented
        and (2) whether the contractor temporary access process meets its goal of
        expediting contractor employment without jeopardizing NRC safety and security.
        The audit focused specifically on Information Technology (IT) Level I, IT Level II,
        and building access contractors working in NRC headquarters and regional
        office facilities. This audit was performed as part of an overall, ongoing, review
        of NRC’s personnel security program.

        The Office of the Inspector General (OIG) audit team reviewed relevant criteria
        such as The Atomic Energy Act of 1954; Title 10, Part 10, of the Code of Federal
        Regulations, “Criteria and procedures for determining eligibility for access to
        restricted data or national security information or an employment clearance”;
        Executive Order 12968, “Access to Classified Information”; Management
        Directive and Handbook (MD) 11.1, “Acquisition of Supplies and Services”; MD
        12.3, “NRC Personnel Security Program”; and other agency and Federal
        documents.

        Auditors interviewed staff in the Division of Facilities and Security (DFS) to better
        understand the process for granting temporary access and denying final access
        to IT Level I, IT Level II, and building access contractors; an attorney in the
        Office of the General Counsel to better understand the agency’s due process
        requirements for denying final access to IT contractors who were previously
        granted temporary access; and NRC project officers to determine if contractor
        policies were implemented in accordance with requirements. Auditors also
        reviewed the GroupWise address book to determine whether contractors with
        building access had been assigned LAN accounts. In addition, auditors
        reviewed personnel security case files for IT contractors to quantify the backlog
        of cases with issues that are awaiting adjudication for final access by NRC.

        This work was conducted from January 2003 through June 2003, in accordance
        with generally accepted Government auditing standards and included a review of
        management controls related to audit objectives. The work was conducted by
        Vicki Foster, Senior Management Analyst; Judy Gordon, Senior Management
        Analyst; Beth Serepca, Team Leader; and Rebecca Underhill, Management
        Analyst.




                                          21
Review of NRC’s Personnel Security Program Contractor Policies and Practices




   [Page intentionally left blank.]




                  22
                 Review of NRC’s Personnel Security Program Contractor Policies and Practices

                                                                                  Appendix B
CONTRACTOR ACCESS APPROVAL PROCESS




                                   23
